OFFICE OF INSPECTOR GENERAL
                    Audit Report

    Inspection of the Railroad Retirement Board’s
Agency Enterprise General Information Support System
           Certification and Accreditation


       This abstract summarizes the results of the subject audit. The
       full report includes information protected from disclosure and
       has been designated for limited distribution pursuant to
       5 U.S.C. § 552




                     Report No. 11-10
                    September 28, 2011




  RAILROAD RETIREMENT BOARD
                                  REPORT ABSTRACT
       Inspection of the Railroad Retirement Board’s Agency Enterprise General
             Information Support System Certification and Accreditation


The Office of Inspector General (OIG) of the Railroad Retirement Board (RRB)
conducted an inspection to determine whether the activities conducted at the RRB for
the certification and accreditation of the Agency Enterprise General Information Support
System (AEGIS) comply with existing policy, procedures, guidance, and standards.

The Federal Information Security Management Act of 2002 (FISMA) requires agencies
to establish and maintain an agency wide security management program that includes
testing of security controls with a frequency that is no less than annually. In addition to
testing security controls, an agency official must authorize the system for processing.
This authorization must be in writing and must occur at least every three years. In fiscal
year (FY) 2010, RRB hired a contractor to conduct a certification and accreditation,
currently referred to as a system authorization, for AEGIS.

In a separately issued Restricted Distribution report, we communicated that the
activities conducted at RRB for the certification and accreditation do not fully comply
with existing policy, procedures, guidance, and standards. In our FY 2009 FISMA
report, the OIG cited the RRB with a significant deficiency in internal control over the
certification and accreditation process because of an ineffective review process for
contractor deliverables. Our inspection found that the internal control structure over the
certification and accreditation process is still a significant deficiency. We made three
recommendations to RRB management:

   •    to develop a comprehensive review process that includes a comparison of the
        documents for consistency and verification that all of the requirements for
        applicable controls are adequately addressed;
   •    to review prior plan of action and milestones (POAM) items and update the
        current agency wide POAM to include all outstanding weaknesses for the AEGIS
        system; and
   •    to develop and implement detailed POAM procedures for maintaining the
        information necessary to allow independent verification and validation of POAM
        closures, and for tracking of agency corrective action by the Chief Information
        Officer.

Agency Management has agreed to take corrective actions for all recommendations.
